CONGRESSIONAL RESPONSE
       REPORT

    Monitoring the Use of
Employee Verification Programs

         A-03-06-36122




         September 2006
                                      Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                            SOCIAL SECURITY
                                  September 26, 2006



The Honorable Jim McCrery
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. McCrery:

I am pleased to provide you with the enclosed report addressing your April 7, 2006 letter
requesting information related to the employee verification programs administered by
the Social Security Administration (SSA) and the Department of Homeland Security
(DHS). This report contains information related to (1) controls over the employee
verification programs to monitor potential abuse by employers and (2) each Agency’s
experience to date with this monitoring.

Thank you for bringing your concerns to my attention. My office is committed to
combating fraud, waste, and abuse in SSA’s operations and programs. To ensure SSA
and DHS are aware of the information provided to your office, we are forwarding copies
of this report to both Agencies.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact H. Douglas Cunningham, Assistant Inspector General for
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,




                                                S
                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Jo Anne B. Barnhart
                                                                           Background
OBJECTIVE
Our objective was to assess (1) controls over the Social Security Administration (SSA)
and Department of Homeland Security (DHS) employee verification programs to monitor
potential abuse by employers and (2) each Agency’s experience to date with this
monitoring.

BACKGROUND
SSA posts wages reported on Wage and Tax Statements (Form W-2) to individuals’
earnings records in SSA's Master Earnings File (MEF)1 only when employers and
third-party submitters2 report employee wages under the correct names and Social
Security numbers (SSN).3 The Agency has implemented several verification programs
that allow employers and third-party submitters to match the names and SSNs of
existing and newly-hired employees with SSA’s records to detect mismatches and other
anomalies. 4 Further, SSA participates with DHS in a verification program that validates
employees’ work-authorization. The two on-line verification programs offered to
employers include the Social Security Number Verification Service (SSNVS) and the
Basic Pilot.5

     SSNVS is an on-line program that allows employers to validate the names and
      SSNs of employees.6 The purpose of SSNVS is to ensure employees’ names and
      SSNs match SSA records prior to the submission of their W-2s to SSA. Employers
      can either verify up to 10 names and SSNs (per screen) on-line and receive
      immediate results or upload batch files of up to 250,000 names and SSNs and

1
 The MEF contains all earnings data reported by employers and self-employed individuals. The data is
used to determine eligibility for and the amount of Social Security benefits.
2
 A third-party submitter is a company or individual that submits or requests information on behalf of
someone else.
3
 The Social Security Act § 205(c)(2)(A), 42 U.S.C. § 405(c)(2)(A) requires SSA to maintain records of
wage amounts employers pay to individuals.
4
    For example, SSNVS will indicate when SSA’s records show a date of death.
5
 While our focus in this report is on-line verification programs, SSA also offers other forms of employee
verification. For instance, employers can register for the Agency’s Employee Verification Service for
Registered Users, which allows employers to submit employee names/SSNs via paper or magnetic
media. SSA also allows employers to verify up to 5 names/SSNs via a toll-free number, or submit a
paper listing to the local Social Security office to verify up to 50 names/SSNs.
6
  SSNVS is one of the services offered by SSA’s Business Service Online (BSO). BSO is a suite of
Internet services for businesses and employers to exchange information with SSA. For further
information, see the BSO homepage at www.socialsecurity.gov/bso/bsowelcome.htm.

Monitoring the Use of Employee Verification Programs (A-03-06-36122)                                        1
    usually receive results the next Government business day. In 2005, SSNVS
    processed over 25.7 million verifications for about 12,000 employers. See Appendix
    C for more information on SSNVS.

   The Basic Pilot is an ongoing joint initiative between SSA and DHS. The purpose of
    the Basic Pilot is to assist employers in verifying the employment eligibility of
    newly-hired employees. Participating employers register on-line with DHS to use the
    automated system. The information the employer submits to DHS is sent to SSA to
    verify that the SSN, name, and date of birth (DoB) match SSA’s records. SSA also
    confirms US citizenship, thereby confirming work authorization. DHS confirms the
    current work-authorization for non-citizens. In 2005, the Basic Pilot processed about
    980,000 verifications for approximately 3,700 employers. See Appendix D for more
    information on the Basic Pilot.




Monitoring the Use of Employee Verification Programs (A-03-06-36122)                    2
                                                          Results of Review
Our review found that SSA has established effective controls over access and use of
sensitive data in its SSNVS program. We found SSNVS had controls over the
application process to verify (1) the applicant’s personal information, (2) the company’s
Employer Identification Number (EIN),7 (3) the applicant’s authorization to use the
service on behalf of the company, and (4) the applicant’s employment with the
company. SSNVS also had controls to detect anomalies in SSNVS usage and potential
misuse of the program. For example, SSA’s monitoring resulted in four investigations of
misuse of the program as well as the deactivation of one user’s access to the program.
The Basic Pilot did not have the same level of controls, in part because (1) the
application process did not request some of the identifiers used by SSNVS to monitor
the applicants, and/or (2) the information provided by the applicant during the
registration process was not validated.

ACCESS CONTROLS
We found the SSNVS program had a number of mechanisms in place to identify and
authenticate applicants, as shown in Table 1. Effective access controls can protect data
and systems from misuse. The Basic Pilot program did not have similar access
controls.

                      Table 1: Controls over the Application Process
                                                                        Control Established?
                    Description of Controls                             SSNVS       Basic Pilot
    Verifying applicant’s name and SSN                                    Yes              No
    Validating the company’s EIN                                          Yes              No
    Separately issuing program activation code to the
                                                                          Yes              No
    company
    Verifying applicant’s employment under the company’s
                                                                          Yes              No
    EIN in SSA’s earnings records

SSNVS CONTROLS OVER THE APPLICATION PROCESS

We found the SSNVS program had controls to (1) verify the applicant’s identity,
(2) validate the company’s EIN, (3) confirm that the employee is an authorized user for
the company, and (4) verify the actual employment of the applicant under the
company’s EIN. The following controls were established as part of the SSNVS
registration process:




7
 The EIN is a 9-digit number assigned by the Internal Revenue Service (IRS) to sole proprietors,
corporations, partnerships, estates, trusts, and other entities for tax reporting purposes.

Monitoring the Use of Employee Verification Programs (A-03-06-36122)                               3
    Applicant’s Personal Information – SSA authenticates the applicant by verifying his
     or her name, SSN,8 and DoB against SSA’s Numident.9

    Company’s EIN – SSA verifies the submitted company’s EIN against the Employer
     Identification File (EIF)10 to confirm that the EIN is valid.

    Separate Issuance of the Program Activation Code to the Company – SSA mails the
     activation code11 directly to the company’s address shown in the EIF instead of the
     address provided by the applicant during the registration process.12 This control
     allows a company to confirm an employee’s authorization to use the program on its
     behalf.

    Applicant’s Employment with the Company – SSA verifies the applicant’s
     employment with the company via the MEF. To do this, the Agency searches the
     MEF to determine whether wages were posted under the reported EIN for each
     applicant’s SSN.

During the registration process, if the information above could not be validated at any
step in the process, SSA advised the applicants to contact the Agency’s Employer
Customer Service to resolve the potential discrepancy.13 For example, if SSA could not
verify the EIN provided, SSA would send an automated alert to the applicant stating:
                            We Cannot Match the Information that you Provided

     We are sorry for the inconvenience, but we cannot match the information you have
     provided with our records. Please review the information you have sent us, make any
     corrections necessary, and resubmit your request. If you were hired by the company you
     are registering for in the last 6-8 months, it is possible that SSA’s records do not reflect your
     employment with the company for whom you are trying to register. If the information that

8
 If an applicant is not a United States citizen and he or she lives outside the country, the SSNVS
registration process will allow an applicant to leave the SSN field blank. However, additional
authentication will be required before access is granted.
9
  The Numident is a record of identifying information (such as name, DoB, date of death, mother’s maiden
name, etc.) provided by the applicant on his or her Application for a Social Security Number (Form SS-5)
for an original SSN and subsequent applications for replacement SSN cards. Each record is housed in
the Numident Master File in SSN order.
10
  The EIF is an IRS file which contains the EIN of a business and the employer name and address
associated with each EIN.
11
  The activation code is an alphanumeric code sent by SSA to the employer or registered Personal
Identification Number (PIN) holder (if self-employed) when access to certain services is requested. This
code must be entered on the Activate Access to BSO Service web page to enable the user to access the
requested service.
12
  The applicant is also assigned a PIN during the registration process and he or she must create his or
her own password. The PIN is a unique value issued by SSA to each applicant, which must be entered to
gain access to SSNVS.
13
  The Agency’s Employer Customer Service is a toll-free line to help employers with wage reporting
questions or problems.

Monitoring the Use of Employee Verification Programs (A-03-06-36122)                                     4
     you provided is correct, then it may be necessary to correct our records. Please call
     1-800-772-6270 Monday through Friday, 7:00 a.m. to 7:00 p.m. Eastern Time to speak with
     Employer Customer Service personnel. For TDD/TTY call 1-800-325-0778.

BASIC PILOT CONTROLS OVER THE APPLICATION PROCESS

Through discussions with DHS and SSA staff, as well as our own use of the Basic Pilot
program, we found that the controls over the application process for the program were
not as comprehensive as those over SSNVS. Specifically, we found (1) the application
process did not request some of the identifiers used by SSNVS to monitor the
applicants and (2) the program did not verify applicant and company information
obtained during the registration process.

When registering for the Basic Pilot program, an applicant must complete and sign a
Memorandum of Understanding (MOU),14 which requests such information as the
applicant and company name, company address, and EIN.15 However, applicants were
not required to provide other relevant data needed to authenticate the applicant’s
identity, such as the applicant’s SSN and DoB. Without this information, the Basic Pilot
program was unable to verify key information associated with the applicant against
other Government records (i.e. SSA’s Numident). We discussed this with DHS staff and
they noted that even if their Agency collected the applicant’s SSN and DoB, they may
not have the authority to verify the relevant data through the Basic Pilot since the
applicant is unlikely to be a newly-hired employee. New employees are the only
category of employees currently permitted to be verified under the program.

We also found the Basic Pilot was not validating the information provided by the
applicant during the registration process. For instance, although the applicant provided
the company’s EIN, this number was not verified to ensure it was a validly issued EIN.
According to DHS staff, the Agency did not have access to the IRS list of assigned
EINs, which could have been used to determine the validity of the EIN.16 Moreover, the
Basic Pilot did not have a process in place to confirm whether the applicants had
authorization to use the service on behalf of their employers, but instead provided
immediate access to the program. Access to the IRS list of assigned EINs would have
provided DHS with an independent source for the employer’s mailing address to confirm
the employee’s status with the employer in question.

Furthermore, if the applicants had been required to provide an SSN, the Basic Pilot
program could have verified whether applicants received wages from their parent
company. However, DHS would need access to earnings records, such as SSA’s MEF,

14
  The MOU sets forth the points of agreement between SSA, DHS, and the employer regarding the
employer's participation in the Basic Pilot.
15
  The Basic Pilot did not require that companies provide their EINs until July 2004, when the program
became a web-based system.
16
  DHS may need to seek approval from the IRS to obtain tax-related data, such as EINs and associated
employer addresses, since Section 6103 of the Internal Revenue Code (26 U.S.C. § 6103) limits the
amount of taxpayer information that can be disclosed.

Monitoring the Use of Employee Verification Programs (A-03-06-36122)                                    5
to perform this verification. DHS staff said they would need to work with SSA and/or the
IRS to obtain such access to earnings records.

MONITORING USE OF THE VERIFICATION SERVICES
The SSNVS program had controls to detect anomalies in SSNVS usage, as shown in
Table 2. For example, SSA had processes that (1) identified users who were
improperly searching for valid name and SSN combinations and (2) verified whether the
employee names and SSNs submitted for verification related to wages recorded in
SSA’s MEF. SSA’s monitoring of user activity resulted in four investigations of program
misuse, one of which lead to the deactivation of a user’s access to the program. The
Basic Pilot did not have similar controls in place at the time of our review, but DHS
planned to add such monitoring controls at a future date.

                       Table 2: Controls over the Monitoring Process
                                                                         Control Established?
                 Description of Controls                                 SSNVS       Basic Pilot
 Identifying multiple submissions of the same employee
                                                                           Yes              No1
 name and/or SSN
 Verifying submitted employee data against SSA’s
                                                                           Yes              No
 earnings records
Note 1: Although the current Basic Pilot program did not have controls to identify multiple submissions
of names/SSNs, DHS is planning to implement such controls with the potential expansion of the Basic
Pilot program.

SSNVS MONITORING CONTROLS

To aid in SSNVS monitoring activities, SSA generated Potential Fraud Identification
reports to highlight incidents where (1) users attempted to verify the same name and/or
SSN multiple times and (2) submitted employee data did not match earnings information
in SSA’s records for the EIN in question. SSA also generated various management
information reports to assist SSA staff in their monitoring of employer usage. Sufficient
monitoring of data is needed to provide assurance that the relevant controls are
operating effectively and to identify control weaknesses.

Potential Fraud Identification Reports

At the time of our review, SSA was using two types of reports to assist in detecting
improper searching for valid names/SSNs during the data submission process:
        •   Same Name/Different SSN report; and
        •   Same SSN/Different Name report.

The Same Name/Different SSN report identified users who attempted to verify more
than 50 combinations for the same name but different SSN, whereas the Same
SSN/Different Name report identified users who attempted to verify more than
50 combinations for the same SSN but different name. These reports captured data


Monitoring the Use of Employee Verification Programs (A-03-06-36122)                                      6
from both on-line and batch verification attempts and were produced on a weekly
basis.17

SSA developed an SSNVS Failed MEF Check report to highlight all PINs, EINs, and
SSNs for which the MEF did not contain wages related to the employees submitted for
verification. The purpose of the report was to identify users who were verifying
individuals not employed by the company. The SSNVS Handbook clearly states “Social
Security will verify SSNs and names solely to ensure the records of current or former
employees are correct for the purpose of completing Internal Revenue Service Form
W-2.”18 The Agency plans to generate the SSNVS Failed MEF Check report on an
annual basis for all users, including third-party users.

Management Information Reports

SSA also used its management information reports to aid in monitoring employers’ use
of the SSNVS program. The frequency and content of the reports varied, but they
included:

    Daily reports on customers who requested access to SSNVS. The information
     included the company’s EIN and name, and the full name, address and telephone
     number of the individual requesting access to the program.

    Weekly reports on the top 50 companies that had the most submissions for
     verification (called the Top 50 EINs report). This information included the rank order
     of the company based on the number of submissions, the company’s EIN and name,
     and the submission and verification requests.

    Weekly and monthly reports on submission and verification counts.

    Monthly reports on year-to-date usage trends.

In addition to the Potential Fraud Identification reports noted above, these management
information reports were used by SSA staff to identify potential anomalies. For
instance, SSA staff may monitor the usage trends for unexpected high submission
volumes since this could be an indicator of possible fraud or misuse of the program.19



17
  SSNVS also has a control feature for on-line verification of names/SSNs. In this case, SSNVS will
display an on-screen alert to notify the user of the inappropriate use of the program. SSA captures
misuse data via its Potential Fraud Identification report.

18
  The SSNVS Handbook also states “It is illegal to use the service to verify SSNs of potential new hires
or contractors or in the preparation of tax returns.”
19
  In the pilot stage of SSNVS, the program generated alerts when an employer verified more than
200 percent of the W-2s reported by the company in the preceding year. However, SSA found that this
alert was not useful since it did not detect misuse but rather allowable variances in how companies were
verifying their data.

Monitoring the Use of Employee Verification Programs (A-03-06-36122)                                       7
SSNVS USERS INVESTIGATED FOR POTENTIAL FRAUD

SSA staff informed us that since implementation of the SSNVS program they have
investigated four SSNVS users for potential fraud and terminated the access of one of
these users. SSA found that although the other three users were inappropriately using
the system, their use did not appear to be fraudulent. SSA discovered two of the users
through review of the Top 50 EINs report and detected the other two users after
reviewing the Potential Fraud Identification reports.

Top 50 EINs Report

In their review of the Top 50 EINs report, SSA staff recognized that a user was
requesting a significant number of verifications through the SSNVS on-line process
even though the user was submitting verifications for a small company. Upon further
investigation, SSA staff suspected that the user was submitting verification requests
related to applicants for new mortgages. SSA contacted the user on several occasions
to inquire about usage and received either no response or unsatisfactory answers. As a
result, SSA staff deactivated the user’s access20 to the SSNVS program in 2005.21 The
staff also notified the Office of the Inspector General, Office of Investigations, but no
further action was necessary due to SSA’s termination of the user’s access.

In our further review of this company, we found that while the company reported 8 W-2s
during Calendar Year (CY) 2005, the user submitted approximately 14,000 names/
SSNs for verification. We also determined that the user in question was employed by a
company that offered a number of mortgage services on its website, including the
processing of IRS Form 4506, Request for Transcript of Tax Return and SSN
verification services. The user also attempted to verify more names/SSNs using SSA’s
telephone service. SSA questioned the user about the number of verifications and
terminated the user’s telephone access.22 We found that in late 2005 the user obtained
access to the Basic Pilot program. However, as of August 2006, the user had not
submitted any verification requests to the Basic Pilot.

20
  SSA has a manual process that allows staff to deactivate registered users who inappropriately use the
SSNVS application. However, there were limitations with the blocking process. The process only allowed
deactivation of a specific user’s PIN. Therefore, a company could register another employee to conduct
name/SSN verification through SSNVS. In addition, when a user was deactivated, the parent company’s
access was also revoked from all BSO Internet services. This revocation could cause problems if the
user was also responsible for reporting the company’s wages electronically through BSO. As a result,
SSA plans to initiate a new blocking facility that will allow blocking to be performed at the company (EIN),
individual employee (SSN), or BSO PIN-holder levels (EIN and SSN). The software enhancement is
expected to be implemented by December 2006.

21
   SSA is finalizing a new verification service, the Consent Based Social Security Number Verification
(CBSV), which will give businesses with a need to verify SSNs (banks, insurance companies, etc.) a way
to purchase SSN verifications from SSA. Businesses will need to register and pay a fee. Submissions
will be made via the CBSV Internet application for number holders who have given valid consent. It is
possible that the deactivated user would qualify to use this service.
22
  SSA maintains a “Do Not Verify” list alerting the Agency’s Employer Customer Service that they should
not verify information for the named employers.

Monitoring the Use of Employee Verification Programs (A-03-06-36122)                                      8
SSA staff also found through review of its Top 50 EINs report another user who was
submitting a significant number of employee names/SSNs for verification, though the
company’s reported payroll did not support such a large volume of submissions. SSA
staff contacted the user and learned that the user owned a construction company and
was using SSNVS to verify the names and SSNs of subcontractors. SSA staff informed
the user that this was an inappropriate use of the program, and the user ceased this
inappropriate verification activity.

Potential Fraud Identification Reports

SSA staff identified two additional user issues through their review of the Same
Name/Different SSNs report. In the first instance, SSA staff found that one user tried to
use SSNVS to determine the correct digits in an SSN shown on an illegible, hand-
written document provided by an employee. In the second instance, SSA staff found
that the user submitted a test file of names and SSNs through SSNVS to determine if all
fictitious SSNs came back as unverified. SSA informed both of these users that such
use of the SSNVS program was inappropriate, and the users ceased their inappropriate
verification activity.

BASIC PILOT MONITORING CONTROLS

In our discussions with DHS staff, they noted that while the Basic Pilot does not
currently verify applicant data or continuously monitor user activity, the Agency is
planning to initiate similar efforts in the future. At the time of our review, DHS had
assigned one staff person to monitor Basic Pilot activity on a part-time basis. However,
DHS staff informed us that the potential expansion of the Basic Pilot23 would necessitate
additional staff to perform a variety of duties, including monitoring day to day use of the
program as well as verifying applicant information. For example, one task for the new
compliance staff could be to follow up on anomalies with program users, including users
that submit no queries or submit only the SSNs of noncitizens. Compliance officers
could contact employers to ensure they are not misusing the program.24 At a
congressional hearing on July 25, 2006, the Associate Director of U.S. Citizenship and
Immigration Services (USCIS) at DHS noted the Agency’s position on controls over the
Basic Pilot:


23
  For example, Senate Bill 2611 has proposed the establishment of the Electronic Employment
Verification System to be used by all employers to verify their employees. See Senate Bill 2611,
Comprehensive Immigration Reform Act of 2006, 109th CONGRESS, 2d Session, S. 2611, § 301(a).
24
   The MOU between the employer, DHS, and SSA states that “The Employer agrees not to use the Basic
Pilot procedures for pre-employment screening of job applicants, support for any unlawful employment
practice, or any other use not authorized by this MOU. The Employer will not verify selectively; it agrees
to use the Basic Pilot procedures for all new hires as long as this MOU is in effect. The Employer agrees
not to use Basic Pilot procedures for reverification, or for employees hired before the date this MOU is in
effect. The Employer understands that should the Employer use the Basic Pilot procedures for any
purpose other than as authorized by this MOU, the Employer may be subject to appropriate legal action
and the immediate termination of its access to SSA and Department of Homeland Security information
pursuant to this MOU.”

Monitoring the Use of Employee Verification Programs (A-03-06-36122)                                     9
        The current Basic Pilot is not fraud proof and was not designed to detect identity
        fraud. In fact, a recent analysis of Basic Pilot systems data found multiple uses
        of certain I-94 numbers, A-numbers, and SSNs in patterns that could suggest
        fraud. As currently envisioned, the Employment Verification Program will include
        robust processes for monitoring and compliance that will help detect and deter
        the use of fraudulent documents, imposter fraud, and incorrect usage of the
        system by employers (intentionally and unintentionally). USCIS will forward
        enforcement leads to [Immigration and Customs Enforcement (ICE)] Worksite
        Enforcement in accordance with referral procedures developed with ICE. The
        monitoring unit will scrutinize individual employers’ use of the system and
        conduct trend analysis to detect potential fraud. Findings that are not likely to
        lead to enforcement action (e.g., user has not completed training) will be referred
        to USCIS compliance officers for follow-up. Findings concerning potential fraud
        (e.g., SSNs being run multiple times in improbable patterns, employers not
        indicating what action they took after receiving a final nonconfirmation) will be
        referred to ICE Worksite Enforcement investigators.25

DHS officials noted that they have met with officials from SSA and the IRS to discuss
potential enhancements to the Basic Pilot as well as avenues for greater cooperation.
DHS officials also stated that future meetings will discuss some of the monitoring and
applicant verification activities already being performed under SSNVS.




25
  Is the Federal Government Doing all it Can to Stem the Tide of Illegal Immigration?, Statement of Janis
Sposato, Associate Director, USCIS, DHS, before the House Subcommittee on Regulation Affairs,
Committee on Government Reform, July 25, 2006.

Monitoring the Use of Employee Verification Programs (A-03-06-36122)                                   10
                                                                       Conclusion
We found the SSNVS program had application and monitoring controls in place to
protect the program, safeguard data, and prevent unauthorized access. Although our
review of the Basic Pilot program was limited, we did not find the same level of access
or monitoring controls in place at the time of our review. For example, key identifiers
such the applicant’s SSN and DoB were not captured as part of the registration process
so the applicant’s identity could be authenticated. Furthermore, the Basic Pilot program
was not validating the information it obtained from applicants, such as the EIN. Due to
the lack of access and monitoring controls over the Basic Pilot, the program would not
be able to detect someone who used an assumed name and fabricated EIN from
gaining access to sensitive data. We believe continued coordination between DHS,
SSA, and IRS would lead to more effective controls to minimize the potential misuse of
the Basic Pilot.




Monitoring the Use of Employee Verification Programs (A-03-06-36122)                  11
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Social Security Number Verification Service
APPENDIX D – Basic Pilot Program




Monitoring the Use of Employee Verification Programs (A-03-06-36122)
                                                                       Appendix A
Acronyms
BSO              Business Service Online
CBSV             Consent Based Social Security Number Verification
CY               Calendar Year
DHS              Department of Homeland Security
DoB              Date of Birth
EIF              Employer Identification File
EIN              Employer Identification Number
ICE              Immigration and Customs Enforcement
IRS              Internal Revenue Service
MEF              Master Earnings File
MOU              Memorandum of Understanding
OIG              Office of the Inspector General
PIN              Personal Identification Number
SSA              Social Security Administration
SSN              Social Security Number
SSNVS            Social Security Number Verification Service
USCIS            U.S. Citizenship and Immigration Service
U.S.C.           United States Code


Forms

Form 1040        U.S. Individual Income Tax Return
Form I-9         Employment Eligibility Verification Form
Form I-94        Arrival/Departure Record
Form SS-5        Application for a Social Security Number
Form W-2         Wage and Tax Statement
“A” Number       Alien Registration Number
I-94 Number      Arrival/Departure Number
Form I-551       Alien Registration Receipt Card
Forms I-766      Employment Authorization Document
and I-688B
Form 4506        Request for Transcript of Tax Return



Monitoring the Use of Employee Verification Programs (A-03-06-36122)
                                                                         Appendix B
Scope and Methodology
To accomplish our objective, we:

•   Reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures as well as other relevant Federal laws and regulations.

•   Reviewed Office of the Inspector General, Government Accountability Office, and
    Department of Homeland Security (DHS) reports, and other relevant documents.

•   For SSA’s Social Security Number Verification Service (SSNVS) and the Basic Pilot
    program, we:

    9 obtained a current list of registered users;
    9 obtained user feedback data;
    9 obtained sample submission data;
    9 identified the number of registered employers using the service in Calendar
      Years (CY) 2004-2005; and
    9 identified the number of verifications submitted in CYs 2004-2005.

•   Discussed the following with SSA and DHS staff:

    9 controls in place under SSNVS and the Basic Pilot to ensure employers are
      taking appropriate actions related to feedback;
    9 controls in place under SSNVS and the Basic Pilot to ensure employers are not
      misusing programs;
    9 each Agency’s experience to date monitoring programs; and
    9 whether any employers had been terminated from SSNVS or the Basic Pilot.

•   Established accounts with SSNVS and the Basic Pilot to (1) gain an understanding
    of the registration process and (2) verify sample data.

We did not perform a full review of internal controls and data reliability due to the limited
timeframe of our review. The entities audited were the Office of Earnings, Enumeration
and Administrative Systems under the Deputy Commissioner for Systems, the Office of
Central Operations under the Deputy Commissioner for Operations, and the Employer
Wage Reporting and Relations Staff under the Deputy Commissioner of Budget,
Finance, and Management. We conducted the audit between April and August 2006 in
Philadelphia, Pennsylvania. We conducted our audit in accordance with generally
accepted government auditing standards.




Monitoring the Use of Employee Verification Programs (A-03-06-36122)
                                                                                     Appendix C
Social Security Number Verification Service
The Social Security Number Verification Services (SSNVS) is a free on-line program
that is available to employers and third-party submitters to verify employees’ names and
Social Security numbers (SSN). The purpose of SSNVS is to ensure employees’
names and SSNs match the Social Security Administration’s (SSA) records prior to the
submission of their wage reports to SSA.1 Employers and third-parties must first
register on-line at SSA’s Business Services Online (BSO) website to use this service.
Following registration, SSA will mail an activation code,2 which is a code needed to gain
access to SSNVS, directly to the company’s address shown in SSA’s Employer
Identification File (EIF).3 Once the registered users activate SSNVS using their
Personal Identification Number (PIN)4 and the activation code, they can start submitting
verifications. Registered users can:
      •   Submit up to 10 employee names and SSNs (per screen) via the on-line SSNVS
          and receive immediate results; and
      •   Upload files containing up to 250,000 employee names and SSNs and usually
          receive verification results the next government business day. This bulk
          procedure allows employers to verify an entire payroll database or verify at one
          time the names and SSNs of a large number of newly hired workers.

SSA will return a verification code to the employer for each employee whose information
does not match SSA’s record. In addition to the verification code, SSA provides a death
indicator if the employee’s Numident5 record includes a date of death. Table C-1
provides descriptions for the SSNVS verification codes.




1
    Prior to June 2, 2005, SSNVS was a pilot that was restricted to a limited number of employers.
2
 The activation code is an alphanumeric code sent by SSA to the employer or registered PIN holder (if
self-employed) when access to certain services is requested. This code must be entered on the Activate
Access to BSO Service web page to enable the user to access the requested service.
3
 The EIF is an Internal Revenue Service file that contains the Employer Identification Number (EIN) of a
business and the employer name and address associated with each EIN.
4
 The PIN is a unique value issued by SSA to the applicant at registration, which must be entered to gain
access to SSNVS.
5
 The Numident is a record of identifying information (such as name, date of birth, date of death, mother’s
maiden name, etc.) provided by the applicant on his or her Application for a Social Security Number
(Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each record is
housed in the Numident Master File in SSN order.


Monitoring the Use of Employee Verification Programs (A-03-06-36122)                                 C-1
               Table C-1: SSNVS Verification Codes Provided to Users
   SSNVS Code                               Description of Code
          1         SSN not in file (never issued to anyone)
          2         Name and date of birth match; gender code does not match
          3         Name and gender code match; date of birth does not match
          4         Name matches; date of birth and gender code do not match
          5         Name does not match; date of birth and gender code not checked
          Y         Death indicator




Monitoring the Use of Employee Verification Programs (A-03-06-36122)          C-2
                                                                                     Appendix D
Basic Pilot Program
The Basic Pilot is an ongoing joint initiative between the Social Security Administration
(SSA) and the Department of Homeland Security (DHS).1 The purpose of the Basic
Pilot is to assist employers in verifying the employment eligibility of newly-hired
employees. The President signed The Basic Pilot Program Extension and Expansion
Act of 2003 (Public Law Number 108-156) into law on December 3, 2003. This law
extended the operation of the Basic Pilot for an additional 5 years (to a total of 11 years)
and expanded the operation to all 50 States not later than December 1, 2004.

As discussed with SSA and DHS staff, the Basic Pilot involves using the information in
Government databases (SSA databases and, if needed, DHS databases) to determine
the employment eligibility of new hires. The Social Security number (SSN) and Alien
Registration Number (“A” Number)2 or I-94 Number (Admission Number)3 are used for
these checks. The employer must complete the DHS-issued Employment Eligibility
Verification Form (Form I-9) for each employee and then enter elements of this data into
the Basic Pilot within 3 days of hiring, including the employee’s SSN, name, date of birth
(DoB), and whether the new-hire indicated he or she was a United States (U.S.) citizen
and, if not, the “A” Number or I-94 Number.

The system first checks the information entered against SSA’s database to verify the
name, SSN, and DoB of newly-hired employees, regardless of citizenship. When the
Numident shows the U.S. as the place of birth for the newly-hired employee or a code
indicating the number holder is a U.S. citizen and the new hire indicated that he/she is a
U.S. citizen, the Basic Pilot automated system confirms employment eligibility. If the
Basic Pilot system cannot confirm employment eligibility based on the information in
SSA’s database or an “A” Number or I-94 Number was entered, the Basic Pilot system
checks the data against DHS’ database.

The employer will receive notification of "SSA tentative non-confirmation" of
employment eligibility when the SSN, name, or DoB does not match the information in
SSA’s database or if a death indicator is present. Also, employers will receive an "SSA
tentative non-confirmation" if the new-hire indicated he or she was a U.S. citizen and
1
  Section 401 of The Illegal Immigration Reform and Immigrant Responsibility Act of 1996
(8 U.S.C. § 1324a), Pub. Law No. 104-208.

2
  The “A” number is the 9-digit number following “A” which is shown on the “green card” or Permanent
Resident Card (formerly the I-551 Alien Registration Receipt Card), the Employment Authorization
Document (I-766 and I-688B), and on certain other immigration documents and notices. For newly
admitted immigrants, the “A” number is shown on the machine readable immigrant visa affixed to the
foreign passport.
3
 The I-94 Number is the 11-digit number located on the Arrival-Departure Record (Form I-94). The
Form I-94 shows the date the individual arrived in the United States, the “Admitted Until” date, and the
date when his or her authorized period of stay expires.


Monitoring the Use of Employee Verification Programs (A-03-06-36122)                                D-1
SSA’s records did not show that the person was a U.S. citizen. The employer will
receive notification of "DHS tentative nonconfirmation" of employment eligibility when
DHS’ database does not show the new-hire as authorized for employment. In these
cases, the employer asks the employee whether he or she wishes to contest the
tentative non-confirmation. If contested, the employee must contact SSA or DHS within
eight Government working days of the notification. After the employee contacts SSA or
DHS to correct the record, the employer resubmits the query through the Basic Pilot
system. If the system does not confirm employment eligibility after the employer
resubmits the query, the employer may terminate the new-hire.




Monitoring the Use of Employee Verification Programs (A-03-06-36122)            D-2
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
